               Department of Veterans Affairs
               Office of Inspector General


                 Office of Healthcare Inspections

Report No. 13-01976-312




   Combined Assessment Program 

           Review of the 

  VA Connecticut Healthcare System 

      West Haven, Connecticut 





September 12, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT



                                              Glossary
                 C&P            compensation and pension
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CPR            cardiopulmonary resuscitation
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Connecticut Healthcare System
                 FY             fiscal year
                 HPC            hospice and palliative care
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 PRC            Peer Review Committee
                 PU             pressure ulcer
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VBA            Veterans Benefits Administration
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                         CAP Review of the VA Connecticut Healthcare System, West Haven, CT



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             9

  Coordination of Care – HPC ...................................................................................                  11

  PU Prevention and Management ............................................................................                       13

  Nurse Staffing .........................................................................................................        15

  Construction Safety.................................................................................................            16


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 19

  C. VISN Director Comments ..................................................................................                    20

  D. Acting Facility Director Comments ....................................................................                       21

  E. OIG Contact and Staff Acknowledgments .........................................................                              30

  F. Report Distribution .............................................................................................            31

  G. Endnotes ...........................................................................................................         32





VA OIG Office of Healthcare Inspections
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT



                                  Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
June 24, 2013.

Review Results: The review covered seven activities.                           We    made     no
recommendations in the following activity:

   Construction Safety

The facility’s reported accomplishments were the positive effect of the Systems
Redesign Program for clinical and administrative operations, Compensation and
Pension Program improvements, and contributions of the Center for Neuroscience and
Regeneration/Neurorehabilitation Research.

Recommendations: We made recommendations in the following six activities:
Quality Management: Consistently complete actions from peer reviews and report them
to the Peer Review Committee. Review each code episode, and critically analyze the
data collected from resuscitation episodes. Implement a quality control policy for
scanning, and consistently scan the results of non-VA purchased diagnostic tests into
electronic health records.

Environment of Care: Ensure Environment of Care Committee minutes include results
of environment of care rounds, identify who is responsible for correcting environmental
deficiencies, and track deficiencies to closure. Require that restrooms and showers on
inpatient areas are clean, that public restrooms and elevators are clean, that public
restrooms are free from environmental safety hazards, and that automatic door opening
switches in all public restrooms are operational.

Medication Management – Controlled Substances Inspections: Initiate actions to
address the four identified deficiencies, and correct all deficiencies identified during
annual physical security surveys. Provide timely quarterly trend reports to the facility
Director, and include all required elements in the trending and analysis of the data.
Inspect all required non-pharmacy and pharmacy areas with controlled substances
monthly. Ensure inspectors validate two transfers of controlled substances from one
storage area to another area. Consistently reconcile 1 day’s dispensing from the
pharmacy to each automated unit.

Coordination of Care – Hospice and Palliative Care: Ensure that the Palliative Care
Consult Team includes a dedicated administrative support person and psychologist or
other mental health provider and that all non-hospice and palliative care clinical staff
who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                        i
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Pressure Ulcer Prevention and Management: Revise the facility pressure ulcer policy to
address prevention for outpatients. Accurately document pressure ulcer location, stage,
risk scale score, and date acquired. Perform and document daily skin inspections for
patients at risk for or with pressure ulcers, and consistently revise prevention plans if
patients’ risk levels change. Provide and document pressure ulcer education for
patients at risk for or with pressure ulcers and/or their caregivers. Ensure designated
employees receive the required pressure ulcer training. Require that electrical medical
equipment in pressure ulcer patient rooms receives an electrical safety inspection.

Nurse Staffing: Monitor the staffing methodology that was implemented in March 2013,
and reassess the target nursing hours per patient day for the medical intensive care unit
to more accurately plan for staffing and evaluate the actual staffing provided.

Comments
The Veterans Integrated Service Network Director and Acting Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 20–29, for
the full text of the Directors’ comments.) We consider recommendation 3 closed. We
will follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   PU Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2011, FY 2012, and FY 2013 through
June 27, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Connecticut Healthcare System, West Haven, Connecticut,
Report No. 10-03090-87, February 14, 2011).




VA OIG Office of Healthcare Inspections                                                        1
                                    CAP Review of the VA Connecticut Healthcare System, West Haven, CT


During this review, we presented crime awareness briefings for 138 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
330 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                            Reported Accomplishments

Systems Redesign Program
The Systems Redesign Program has made substantial clinical and administrative
contributions to improvement efforts across the organization. In FYs 2012 and 2013,
476 employees were trained in Lean (quality improvement) methodologies. During
FY 2012, 244 systems redesign projects were completed. For FY 2013 as of
June 15, 2013, 94 systems redesign projects had been completed, 52 projects were
active, and 49 projects had been proposed.         The estimated savings from the
improvement efforts in FY 2012 was $700,000, and the anticipated savings in FY 2013
is $500,000.

FY 2013’s focus has been primary care, and 21 Patient Aligned Care Teams currently
use Lean tools to improve patient flow. One team identified that patients often arrived at
appointments without having laboratory tests that were ordered by their physicians. The
team piloted calling patients 2 weeks in advance to remind them of their appointments
and laboratory tests. As a result of the calls, the number of patients without laboratory
tests at the time of their appointments dropped from 34 percent to 21 percent. In
addition, patients not able to keep their original appointments rescheduled them instead
of not showing, which opened appointment slots for other patients.

C&P Program
The facility’s C&P Program staff supports veterans, their families, and survivors by
providing timely, high quality C&P examinations.a The number of examination requests
has continued to increase from approximately 500 per month during FY 2010 to
approximately 900 per month during FY 2013. Staff in the C&P Program, Chief of
Staff’s Office, and Director’s Office have built a strong relationship with staff at VBA’s



a
 C&P examinations assess veterans’ impairments resulting from service related injury or illness and are used to
determine disability benefits for both medical treatment and monetary benefits.


VA OIG Office of Healthcare Inspections                                                                           2
                                   CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Hartford Regional Office.b Leadership has improved coordination and ownership of
outcomes by appointing service line C&P Chiefs across the specialty areas of medicine,
mental health, audiology, dental, and optometry. As a result, the average time to
complete a C&P examination has decreased from 38 days during FY 2011 to 16 days
during FY 2013.

The Center for Neuroscience and Regeneration/Neurorehabilitation
Research
The Center for Neuroscience and Regeneration/Neurorehabilitation Research was
established to develop new and more effective treatments for repair and protection of
the injured nervous system with the objective of promoting functional recovery. Specific
disease targets include spinal cord injury, multiple sclerosis, and traumatic brain injury.

The center has identified a specific gene (one out of 30,000) that plays a key role in
controlling pain signaling. The gene, Nav1.7, has been identified as a major contributor
to neuropathic pain after nerve injury, traumatic limb amputation, and burn injury.
Nav1.7 is now a major target in development efforts of new, more effective pain
therapies. Blockers of Nav1.7 are under development as novel pain treatments that will
be more effective with minimal potential for dependence and addiction compared with
currently available treatments.




b
 VBA is responsible for administering VA programs that provide financial and other forms of assistance to
veterans, their dependents, and survivors. VBA oversees the process for determining disability while VA medical
centers provide clinical evaluation through C&P examinations.


VA OIG Office of Healthcare Inspections                                                                           3
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                          Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
 X     Corrective actions from the protected peer         Six months of PRC meeting minutes reviewed:
       review process were reported to the PRC.            Of the six actions expected to be completed,
                                                             two were not reported to the PRC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
 X     The CPR review policy and processes                Six months of CPR Committee meeting minutes
       complied with requirements for reviews of          reviewed:
       episodes of care where resuscitation was            There was no evidence that the committee
       attempted.                                            reviewed each code episode.
                                                           There was no evidence that the data
                                                             collected from resuscitation episodes were
                                                             critically analyzed.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.


VA OIG Office of Healthcare Inspections                                                                    4
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


 NC            Areas Reviewed (continued)                                     Findings
       The EHR copy and paste function was
       monitored.
 X     Appropriate quality control processes were in       The facility did not have a quality control
       place for non-VA care documents, and the             policy for scanning.
       documents were scanned into EHRs.
                                                          Twelve EHRs of patients who had non-VA
                                                          purchased diagnostic tests reviewed:
                                                           Two test results were not scanned into the
                                                            EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that actions from peer reviews
are consistently completed and reported to the PRC.

2. We recommended that processes be strengthened to ensure that the CPR Committee
reviews each code episode and that the data collected from resuscitation episodes are critically
analyzed.

3.    We recommended that the facility implement a quality control policy for scanning.

4. We recommended that processes be strengthened to ensure that the results of non-VA
purchased diagnostic tests are consistently scanned into EHRs.




VA OIG Office of Healthcare Inspections                                                                   5
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

At the West Haven campus, we inspected the CLC; one medical/surgical, the
telemetry/step-down, the behavioral health, and the medical intensive care inpatient units; SPS;
the emergency department; and one primary care, the physical therapy, and the dialysis clinics.
At the Newington campus, we inspected the urgent care and primary care clinics. Additionally,
we reviewed relevant documents, conversed with key employees and managers, and reviewed
30 employee training and competency files (10 hemodialysis, 10 operating room, and 10 SPS).
The table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC          Areas Reviewed for General EOC                                   Findings
  X    EOC Committee minutes reflected sufficient         Six months of EOC Committee meeting minutes
       detail regarding identified deficiencies,          reviewed:
       corrective actions taken, and tracking of           Minutes did not reflect the results of EOC
       corrective actions to closure.                        rounds.
                                                           There was no process to identify who was
                                                             responsible for correcting environmental
                                                             deficiencies and tracking them to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.         Community showers or restrooms on three of
                                                            five inpatient units inspected were not clean.
                                                           Elevators and public restrooms at both
                                                            campuses were not clean. Additionally,
                                                            public restrooms had environmental safety
                                                            hazards such as damaged floors that were
                                                            trip hazards and non-functional electronic
                                                            automatic door opening switches.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.



VA OIG Office of Healthcare Inspections                                                                      6
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


 NC          Areas Reviewed for Hemodialysis                                  Findings
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
       Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                   7
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT



Recommendations

5. We recommended that processes be strengthened to ensure that EOC Committee minutes
include results of EOC rounds, identify who is responsible for correcting environmental
deficiencies, and track deficiencies to closure.

6. We recommended that processes be strengthened to ensure that restrooms and showers
on inpatient units are clean.

7. We recommended that processes be strengthened to ensure that public restrooms and
elevators are clean, that public restrooms are free from environmental safety hazards, and that
automatic door opening switches in all public restrooms are operational.




VA OIG Office of Healthcare Inspections                                                                   8
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
       Facility policy was consistent with VHA
       requirements.
 X     VA police conducted annual physical security       Annual physical security surveys for past
       surveys of the pharmacy/pharmacies, and any        2 years reviewed:
       identified deficiencies were corrected.             Four identified deficiencies had not been
                                                             corrected.
 X     Instructions for inspecting automated              Automated dispensing machine inspection
       dispensing machines were documented,               instructions reviewed:
       included all required elements, and were            Although instructions required reconciliation
       followed.                                             of 1 day’s dispensing from the pharmacy to
                                                             each automated unit, this was not consistently
                                                             done for seven of the CS areas.
 X     Monthly CS inspection findings summaries           Summary of CS inspection findings for past
       and quarterly trend reports were provided to       6 months and quarterly trend reports for past
       the facility Director.                             4 quarters reviewed:
                                                           None of the quarterly trend reports were
                                                             provided timely to the facility Director, and
                                                             trending and analysis of the data did not
                                                             include all the elements required by VHA
                                                             policy.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 X     Non-pharmacy areas with CS were inspected          Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and           the past 6 months reviewed:
       inspections included all required elements.         Five areas were not consistently inspected
                                                             monthly.
                                                           Two areas did not have consistent validation
                                                             of two transfers of CS from one storage area
                                                             to another area.




VA OIG Office of Healthcare Inspections                                                                     9
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


 NC            Areas Reviewed (continued)                                    Findings
  X    Pharmacy CS inspections were conducted in          Documentation of pharmacy CS inspections
       accordance with VHA requirements and               during the past 6 months reviewed:
       included all required elements.                     Three required areas (emergency drug cache,
                                                            methadone vault, and the Newington
                                                            outpatient pharmacy) were not consistently
                                                            inspected monthly.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

8. We recommended that managers initiate actions to address the four identified deficiencies
and that processes be strengthened to ensure that all deficiencies identified during annual
physical security surveys are corrected.

9. We recommended that processes be implemented to ensure that quarterly trend reports are
provided timely to the facility Director and that trending and analysis of the data includes all
elements required by VHA policy.

10. We recommended that processes be strengthened to ensure that all required
non-pharmacy and pharmacy areas with CS are inspected monthly.

11. We recommended that processes be strengthened to ensure that inspectors validate
2 transfers of CS from 1 storage area to another area and that 1 day’s dispensing from the
pharmacy to each automated unit is consistently reconciled.




VA OIG Office of Healthcare Inspections                                                                  10
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 21 employee training records (6 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                    Areas Reviewed                                        Findings
  X    A PCCT was in place and had the dedicated           An administrative support person and
       staff required.                                      psychologist or other mental health provider
                                                            had not been dedicated to the PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
 X     HPC staff and selected non-HPC staff had            There was no evidence that eight non-HPC
       end-of-life training.                                staff had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.




VA OIG Office of Healthcare Inspections                                                                    11
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


 NC            Areas Reviewed (continued)                                     Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

12. We recommended that the PCCT includes a dedicated administrative support person and
psychologist or other mental health provider.

13. We recommended that processes be strengthened to ensure that all non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                                  12
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


PU Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive PU prevention and management.5

We reviewed relevant documents, 24 EHRs of patients with PUs (10 patients with
hospital-acquired PUs, 10 patients with community-acquired PUs, and 4 patients with PUs at the
time of our onsite visit), and 10 employee training records. Additionally, we inspected three
patient rooms. The table below shows the areas reviewed for this topic. The areas marked as
NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    The facility had a PU prevention policy, and it    Facility PU prevention policy reviewed:
       addressed prevention for all inpatient areas        The policy did not address prevention for
       and for outpatient care.                             outpatient care.
       The facility had an interprofessional PU
       committee, and the membership included a
       certified wound care specialist.
       PU data was analyzed and reported to facility
       executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                  In 16 of the 24 EHRs, staff did not
       documenting location, stage, risk scale score,       consistently document the location, stage, risk
       and date acquired.                                   scale score, and/or date acquired.
 X     Required activities were performed for              Ten of the 24 EHRs did not contain
       patients determined to be at risk for PUs and         consistent documentation that staff performed
       for patients with PUs.                                daily skin inspections.
                                                           In 8 of the 12 applicable EHRs, staff did not
                                                             consistently revise prevention plans if the
                                                             patients’ risk levels changed.
       Required activities were performed for
       patients determined to not be at risk for PUs.
       For patients at risk for and with PUs,
       interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s PU was not healed at
       discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                  13
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


 NC             Areas Reviewed (continued)                                       Findings
  X    The facility defined requirements for patient      Facility PU patient and caregiver education
       and caregiver PU education, and education on       requirements reviewed:
       PU prevention and development was provided          For 11 of the applicable patients at risk
       to those at risk for and with PUs and/or their        for/with a PU, EHRs did not contain evidence
       caregivers.                                           that education was provided.
 X     The facility defined requirements for staff PU     Facility PU staff education requirements
       education, and acute care staff received           reviewed:
       training on how to administer the PU risk           Six employee training records did not contain
       scale, conduct the complete skin assessment,          all of the training requirements.
       and accurately document findings.
 X     The facility complied with selected fire and       Three PU patient rooms inspected. Fire safety:
       environmental safety, infection prevention,         In two rooms, electrical medical equipment
       and medication safety and security                   did not have evidence of required safety
       requirements in PU patient rooms.                    inspections completed by the contractor.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

14. We recommended that the facility PU policy be revised to address prevention for
outpatients and that compliance with the revised policy be monitored.

15. We recommended that processes be strengthened to ensure that acute care staff
accurately document PU location, stage, risk scale score, and date acquired.

16. We recommended that processes be strengthened to ensure that acute care staff perform
and document daily skin inspections for patients at risk for or with PUs and consistently revise
prevention plans if the patients’ risk levels change.

17. We recommended that processes be strengthened to ensure that acute care staff provide
and document PU education for patients at risk for and with PUs and/or their caregivers.

18. We recommended that processes be strengthened to ensure that designated employees
receive training on how to administer the PU risk scale, how to conduct a complete skin
assessment, and how to accurately document findings.

19. We recommended that processes be strengthened to ensure that electrical medical
equipment in PU patient rooms receives an electrical safety inspection.




VA OIG Office of Healthcare Inspections                                                                  14
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and 22 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for the two units for which
staffing data was available, the medical intensive care unit and CLC unit T3W, for 52 randomly
selected days (holidays, weekdays, and weekend days) between October 1, 2012, and
March 31, 2013. The table below shows the areas reviewed for this topic. The areas marked
as NC needed improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                         Findings
  X    The facility completed the required steps to        The facility expert panel was not convened
       develop a nurse staffing methodology by the          until March 28, 2013.
       deadline.
 NA    The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 X     The actual nursing hours per patient day met        The medical intensive care unit’s average
       or exceeded the target nursing hours per             actual nursing hours per patient day were
       patient day.                                         significantly below the target for weekdays
                                                            and weekend days.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

20. We recommended that nursing managers monitor the staffing methodology that was
implemented in March 2013.

21. We recommended that nurse managers reassess the target nursing hours per patient day
for the medical intensive care unit to more accurately plan for staffing and evaluate the actual
staffing provided.




VA OIG Office of Healthcare Inspections                                                                   15
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the behavioral health inpatient unit renovation project. Additionally, we reviewed
relevant documents and 20 training records (10 contractor records and 10 employee records),
and we conversed with key employees and managers. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                         Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.




VA OIG Office of Healthcare Inspections                                                                  16
                                          CAP Review of the VA Connecticut Healthcare System, West Haven, CT


 NC            Areas Reviewed (continued)                                     Findings
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                  17
                                      CAP Review of the VA Connecticut Healthcare System, West Haven, CT
                                                                                             Appendix A

             Facility Profile (West Haven/689) FY 2013 through
                                 April 2013c
Type of Organization                                                       Tertiary
Complexity Level                                                           1a-High Complexity
Affiliated/Non-Affiliated                                                  Affiliated
Total Medical Care Budget in Millions                                      $468.7
Number (through May 2013) of:
    Unique Patients                                                       50,285
    Outpatient Visits                                                     468,938
    Unique Employeesd                                                     2,209
Type and Number of Operating Beds:
    Hospital                                                              135
    CLC                                                                   40
    Mental Health                                                         32
Average Daily Census:
    Hospital                                                              114
    CLC                                                                   20
    Mental Health                                                         20
Number of Community Based Outpatient Clinics                               6
Location(s)/Station Number(s)                                              Waterbury/689GA
                                                                           Stamford/689GB
                                                                           Willimantic/689GC
                                                                           Winsted/689GD
                                                                           Danbury/689GE
                                                                           New London/689HC
VISN Number                                                                1




c
    All data is for FY 2013 through April 2013 except where noted.
d
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                              18
                                   CAP Review of the VA Connecticut Healthcare System, West Haven, CT
                                                                                          Appendix B


                           VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    62.6            60.0            57.1             56.8             61.4             62.8
    VISN        65.7            67.6            60.8             59.9             65.3             61.7
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.e Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.f

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack      Heart           Pneumonia
                               Failure                                            Failure
    Facility   14.3            9.1              8.4             20.5              24.7            19.8
    U.S.
    National   15.5            11.6             12.0            19.7              24.7            18.5




e
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
f
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         19
                                CAP Review of the VA Connecticut Healthcare System, West Haven, CT
                                                                                       Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           August 27, 2013 


       From:           Director, VA New England Healthcare System (10N1) 


       Subject:        CAP Review of the VA Connecticut Healthcare System, 

                       West Haven, CT

       To:             Director, Bedford Office of Healthcare Inspections (54BN)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I have reviewed and concur with the action plans included in the
       VA Connecticut Healthcare System Draft CAP report response.

       Sincerely,

               (original signed by:)
       Michael Mayo-Smith, MD, MPH
       Network Director




VA OIG Office of Healthcare Inspections                                                        20
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT
                                                                                      Appendix D
                       Acting Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


       Date:            August 6, 2013

       From:            Acting Director, VA Connecticut Healthcare System (689/00)

       Subject:         CAP Review of the Connecticut VA Health Care System,
                        West Haven, CT

       To:              Director, VA New England Healthcare System (10N1)

       I have reviewed and concur with the action plans included in the
       VA Connecticut Healthcare System Draft CAP Report response.

       Sincerely,

       (original signed by:)
       John Callahan
       Acting Facility Director




VA OIG Office of Healthcare Inspections                                                       21
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


                               Comments to OIG’s Report

The following Acting Director’s comments are submitted in response to the
recommendations in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
actions from peer reviews are consistently completed and reported to the PRC.

Concur

Target date for completion: 8/1/2013

Facility response: VA Connecticut (VACT) immediately met with the chair of the PRC
and redesigned the tracking grid to include an additional column to ensure that final
completed action items were received and item was closed. The risk manager receives
closure items and shares with committee during meeting and follows through with
documenting in the tracking tool for closure. The tool will be reviewed by the risk
manager monthly and compliance reported out to the Medical Staff Executive
Committee (MSEC) with the PRC quarterly reports.

Recommendation 2. We recommended that processes be strengthened to ensure that
the CPR Committee reviews each code episode and that the data collected from
resuscitation episodes are critically analyzed.

Concur

Target date for completion: 7/26/2013

Facility response: VACT CPR Committee has reformatted their minute’s template to
include additional information regarding each code episode as discussed with the
committee beginning with the July meeting. Each episode was reviewed with the
committee, summarized in the minutes and any trends will be identified and tracked
through closure in the minutes. Data is summarized and analyzed for a quarterly report
to the MSEC. Quarterly reports will include any issues identified via these committee
code reviews.

Recommendation 3. We recommended that the facility implement a quality control
policy for scanning.

Concur

Target date for completion: 7/24/2013

Facility response: VA Connecticut Healthcare System Policy 00-171 Scanning of
Documents into the health record was in the concurrence process during inspection and


VA OIG Office of Healthcare Inspections                                                       22
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


has since completed the process and has been posted to our policies website for all
staff reference.

Recommendation 4. We recommended that processes be strengthened to ensure that
the results of non-VA purchased diagnostic tests are consistently scanned into EHRs.

Concur

Target date for completion: 8/1/2013

Facility response: VACT met with key stakeholders in the purchased care department
and implemented a verification process to assure all non-VA purchased diagnostic tests
are consistently received and scanned into the record. Daily mail review is completed
for any bill related to non-VA care and whether or not a radiology code is associated
with that bill. Providing claim is one that is eligible for payment, if it is not accompanied
by the radiology exam, claim will be rejected and record requested from Non-VA facility.
Payment will be made when appropriate records are received and scanned into record.
Purchased care supervisor maintains a tracking mechanism and will report any
discrepancies quarterly to QM.

Recommendation 5. We recommended that processes be strengthened to ensure that
EOC Committee minutes include results of EOC rounds, identify who is responsible for
correcting environmental deficiencies, and track deficiencies to closure.

Concur

Target date for completion: 9/23/2013

Facility response: VACT met with key stakeholders including the Associate Director, the
Chair of the EOC Committee, and Quality Management. The EOC rounding program
was revised including requirements for participation, documentation, and follow-up of
findings. The Associate Director was charged with overseeing the process and
ensuring that the requirements were met. The schedule was reviewed to ensure that all
areas were included on the schedule. Representatives from each subject area are
required for each episode of EOC rounding to begin. Rounds are scheduled to begin in
the Associate Director’s office to verify that each subject area is covered. Each subject
area expert then has 48 hours to complete findings and submit them to the Associate
Director’s Office. Each subject area expert is responsible for ensuring that open items
are resolved timely and that work orders are entered for those items that are unable to
be resolved on-site during rounds. Beginning with the September EOC Committee
Meeting, a monthly report regarding the previous month’s EOC activity will be presented
as a standing agenda item for review and discussion regarding unresolved issues.
Content will include the areas in which EOC rounds took place, all identified items (both
open and closed), open items from previous rounds including efforts to resolve and
responsible person, and attendance from each subject area on rounds. All items will be
tracked until closure.




VA OIG Office of Healthcare Inspections                                                       23
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Recommendation 6. We recommended that processes be strengthened to ensure that
restrooms and showers on inpatient units are clean.

Concur

Target date for completion: 8/5/2013

Facility response: VACT made immediate correction to identified areas while the OIG
was onsite. Key stakeholders from Facilities Management Service (FMS) and the
Environmental Management Service (EMS) have implemented a monthly schedule for
deep cleaning to both the inpatient and outpatient restrooms. The Housekeeping
Supervisor is tracking cleaning completion via the daily staffing report and physical
follow up audit of areas said to be cleaned. Results will be reported quarterly to the
EOC committee beginning with Quarter 4, FY 2013.

Recommendation 7. We recommended that processes be strengthened to ensure that
public restrooms and elevators are clean, that public restrooms are free from
environmental safety hazards, and that automatic door opening switches in all public
restrooms are operational.

Concur

Target date for completion: 8/5/2013

Facility response: As mentioned in Recommendation 6, VACT made immediate
correction to identified areas while the OIG was onsite. Key stakeholders from
Facilities Management Service (FMS) and the Environmental Management Service
(EMS) have implemented a monthly deep cleaning schedule to both the inpatient and
outpatient restrooms. The Housekeeping Supervisor is tracking cleaning completion via
the daily staffing report and weekly physical follow up audit of areas said to be cleaned.
Results will be reported quarterly to the EOC committee beginning with Quarter 4,
FY 2013. Effective 8/5/13, automatic door opening switches will be checked to assure
they are operational with each cleaning of the restrooms, as well as restrooms will be
evaluated for any environmental safety hazards. Safety Hazards will be reported
immediately to a supervisor and the affected restroom will be taken out of service for
corrective action. EMS staff will be educated on the process, along with a reeducation
of the SOP for cleaning restrooms during morning huddle on 8/5/13. Any deficiencies
will be reported immediately via the work order process and tracked to closure.
Elevator cleaning has been changed from biweekly to daily by the third shift staff and
will be monitored by the Housekeeping Supervisor. All areas are also included as part
of inspection during biannual EOC rounds. FMS and EMS supervisors are currently
exploring vendors to contract out for deep cleaning services to be performed on
restrooms.




VA OIG Office of Healthcare Inspections                                                       24
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Recommendation 8. We recommended that managers initiate actions to address the
four identified deficiencies and that processes be strengthened to ensure that all
deficiencies identified during annual physical security surveys are corrected.

Concur

Target date for completion: 11/6/2013

Facility response: VACT immediately addressed outstanding physical inspection
deficiencies with key stakeholders. Items within our immediate control include an
additional camera in the research pharmacy to allow for full camera view and mandating
that pharmacy staff use the proximity card readers controlling physical access to the
pharmacy where they are available. Additional proximity card readers will be procured.
Key access will be allowed in the event of a proximity card reader failure. The
additional camera and additional card readers will be entered as an emergency
procurement with estimated completion within 90 days. The deficiencies related to
motion intrusion detectors will be included in an 8/21/2013 meeting with key
stakeholders from Pharmacy Service and VA Police for a Pharmacy Security
Enhancement Project to address these findings. This project will include other
enhancements to overall security and will enter into the contracting process which will
then determine the timeline.

Recommendation 9. We recommended that processes be implemented to ensure that
quarterly trend reports are provided timely to the facility Director and that trending and
analysis of the data includes all elements required by VHA policy.

Concur

Target date for completion: 12/31/2013

Facility response: As of April 2013, all quarterly reports have been up to date and
presented to the facility Director timely. A new CSC has been appointed and
deficiencies are tracked to closure and documented in the monthly reports with any
trends summarized in the quarterly reports. Trending and analysis will include
comments on: resolution of identified discrepancies and discrepancies trended by
location, drug and number of doses and any documented complaints to the patient
advocate. Problematic trends will be further commented on with an action plan if not
resolved when the report is completed as well as any potential areas for improvement.
All reports will now be routed monthly to QM for review.

Recommendation 10. We recommended that processes be strengthened to ensure
that all required non-pharmacy and pharmacy areas with CS are inspected monthly.

Concur

Target date for completion: 10/1/2013




VA OIG Office of Healthcare Inspections                                                       25
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Facility response: As of May 2013, a full complement of CSI is in effect. Monthly
assignments are monitored by the Deputy CSC and the Chief of Police. At this time all
areas are 100% compliant with monthly inspections. All monthly reports will be routed
to QM for review.

Recommendation 11. We recommended that processes be strengthened to ensure
that inspectors validate 2 transfers of CS from 1 storage area to another area and that
1 day’s dispensing from the pharmacy to each automated unit is consistently reconciled.

Concur

Target date for completion: 6/30/2013

Facility response: As of June 2013, all CS Inspectors have been reeducated on
complete and appropriate documentation to ensure they are validating two CS transfers
from one storage area to another area and that 1 day’s dispensing from pharmacy to
each automated unit is consistently reconciled. CSI reports are turned in monthly and
verified by the Deputy CSC and the Chief of Police.

Recommendation 12. We recommended that the PCCT includes a dedicated
administrative support person and psychologist or other mental health provider.

Concur

Target date for completion: 11/30/2013

Facility response: VACT has labor mapped a .25 FTEE administrative support person to
the PCCT effective immediately. Effective 8/5/2013, approval to hire (1) FTEE
Psychologist for support the PCCT initiative was granted by the Acting Director.
Recruitment efforts will be initiated immediately by the Human Resources Department.

Recommendation 13. We recommended that processes be strengthened to ensure
that all non-HPC clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur

Target date for completion: 12/31/2013

Facility response: End of Life Care (Nursing) Talent Management System (TMS) course
(non-Federal 11077) will be added to the TMS records for all non-HPC clinical staff to
receive training on end of life care by 8/15/13 with expected completion by the end of
this calendar year. Deficiency reports will be monitored quarterly by QM in conjunction
with hospital education and the PCCT for noncompliance.




VA OIG Office of Healthcare Inspections                                                       26
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Recommendation 14. We recommended that the facility PU policy be revised to
address prevention for outpatients and that compliance with the revised policy be
monitored.

Concur

Target date for completion: 8/5/2013

Facility response: The VACT policy on pressure ulcers has been revised to include
outpatients and compliance with the policy will be monitored by Primary Care running
the Vesting Reminder Report and review records on 10% of patients identified on the
list for compliance with the policy.

Recommendation 15. We recommended that processes be strengthened to ensure
that acute care staff accurately document PU location, stage, risk scale score, and date
acquired.

Concur

Target date for completion: 8/19/2013

Facility response: Key stakeholders within the pressure ulcer prevention interdisciplinary
committee met to develop an action plan to ensure accurate documentation prior to OIG
onsite assessment. The facility had moved to using the VA Nursing Outcomes
Database (VANOD) template for documentation which addresses all required elements.
It has been a phased roll out with expected completion by 8/19/2013 to all units.

Recommendation 16. We recommended that processes be strengthened to ensure
that acute care staff perform and document daily skin inspections for patients at risk for
or with PUs and consistently revise prevention plans if the patients’ risk levels change.

Concur

Target date for completion: 8/19/2013

Facility response: VANOD daily skin reassessment template is being implemented as
defined in Recommendation 15, with 100% chart review for change in plan being
completed by facility Wound Care Nurse (WCN). Immediate onsite correction will be
made by WCN to address deficiencies.

Recommendation 17. We recommended that processes be strengthened to ensure
that acute care staff provide and document PU education for patients at risk for and with
PUs and/or their caregivers.

Concur

Target date for completion: 9/30/2013




VA OIG Office of Healthcare Inspections                                                       27
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Facility response: VACT has begun to implement I-med education as the sole source for
pressure ulcer education. Documentation will then appear in the patient record
automatically. This will be monitored monthly through the WCN chart audit along with
Recommendation 16 and reviewed quarterly at interdisciplinary pressure ulcer
committee.

Recommendation 18. We recommended that processes be strengthened to ensure
that designated employees receive training on how to administer the PU risk scale, how
to conduct a complete skin assessment, and how to accurately document findings.

Concur

Target date for completion: 9/30/2013

Facility response: Key stakeholders from the pressure ulcer committee, hospital
education and nursing convened to develop a plan to ensure all designated employees
receive appropriate training to administer the PU risk scale, how to conduct a complete
skin assessment and how to accurately document their findings. The National
Database of Nursing Quality Indicators (NDNQI) competency model had previously
been added to the learning plans in TMS for all designated staff with a completion date
of 9/30/2013 and is monitored by the delinquency reports in TMS by hospital education.
The Nursing policy CP-17 has been updated to include use of the VANOD template and
how to appropriately document using that template. Head Nurse Managers will provide
the education to their staff and maintain sign in records that each staff member has
been educated and understands the documentation expectations. The updated policy
will be provided to designated staff and reviewed in its entirety to fulfill how to accurately
document findings. Education on how to conduct a complete skin assessment will be
added to the learning plans of designated staff in TMS and compliance tracked through
delinquency reports by hospital education.

Recommendation 19. We recommended that processes be strengthened to ensure
that electrical medical equipment in PU patient rooms receives an electrical safety
inspection.

Concur

Target date for completion: 8/1/2013

Facility response: VACT immediately called the appropriate vendors to replace the
inspection stickers that were missing and or illegible on the specified equipment.
Preventative maintenance responsibilities were verified as being part of the vendor
contract. VACT has asked that the vendor provide us with a listing of all the units
inspection dates and next due date as well as to have the vendor use indelible ink from
now on due to cleaning when documenting on the PM stickers, as well as a preemptive
review of current equipment and replace the stickers. Process will be monitored by the
Administrative Officer for Nursing in cooperation with the Chief of Logistics.




VA OIG Office of Healthcare Inspections                                                       28
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT


Recommendation 20. We recommended that nursing managers monitor the staffing
methodology that was implemented in March 2013.

Concur

Target date for completion: 10/31/2013

Facility response: Nursing continues to collect the daily nursing hour’s data and to
analyze it monthly. Based upon this monthly analysis we have added the following data
points to more accurately evaluate the staffing. Number of patients required for
1:1 coverage was added, as well as number of patients cared for in the MICU that are
actually step-down or floor boarders and the number of hours of support the MICU
received from SWAT team nurses. Nursing will reassess the target hours in our Staffing
Methodology annual review in October 2013.

Recommendation 21. We recommended that nurse managers reassess the target
nursing hours per patient day for the medical intensive care unit to more accurately plan
for staffing and evaluate the actual staffing provided.

Concur

Target date for completion: 10/31/2013

Facility response: Nursing continues to collect the daily nursing hour’s data for MICU
and analyze it monthly. As mentioned in Recommendation 20, based upon this monthly
analysis we have added several data points to more accurately evaluate the staffing.
Number of patients required for 1:1 coverage was added, as well as number of patients
cared for in the MICU that are actually step-down or floor boarders and the number of
hours of support the MICU received from SWAT team nurses. Nursing will reassess the
target hours in our Staffing Methodology annual review in October 2013.




VA OIG Office of Healthcare Inspections                                                       29
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Annette Acosta, RN, MN, Team Leader
Contributors            Robert Breunig
                        Elaine Kahigian, RN, JD
                        Frank Keslof, EMT, MHA
                        Jeanne Martin, PharmD
                        Clarissa Reynolds, CNHA, MBA
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Claire McDonald, MPA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       30
                               CAP Review of the VA Connecticut Healthcare System, West Haven, CT
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA New England Healthcare System (10N1)
Acting Director, VA Connecticut Healthcare System (689/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Richard Blumenthal, Christopher Murphy
U.S. House of Representatives: Rosa L. DeLauro, John B. Larson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       31
                                       CAP Review of the VA Connecticut Healthcare System, West Haven, CT
                                                                                             Appendix G

                                                 Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       32
                                       CAP Review of the VA Connecticut Healthcare System, West Haven, CT



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        33
